CONSUMER CREDIT
CARD AGREEMENT
AND DISCLOSURE AND
ARBITRATION
AGREEMENT
VISA

CREDIT CARD AGREEMENT AND DISCLOSURE
This Consumer Credit Card Agreement and Disclosure together with the Account Opening Disclosure and any other
Account opening documents or any subsequent documents provided to You related to this Account (hereinafter
collectively referred to as “Agreement”) govern the terms and conditions of this Account. “We,” “Us,” “Our” and “Ours” and
“Credit Union” refers to with which this Agreement is made. “You,” “Your,” and “Yours” refers to each applicant and coapplicant for the Account; any person responsible for paying the Account; and anyone You authorize to use, access or
service the Account. "Card" means the Visa credit card and any other access devices, duplicates, renewals, or
substitutions, the Credit Union issues to You. "Account" means the line of credit established by this Agreement and
includes Your Card.
SECURITY INTEREST
You grant the Credit Union a security interest under the Uniform Commercial Code and under any common law rights
the Credit Union may have in any goods You purchase.
If You give the Credit Union a specific pledge of shares by signing a separate pledge of shares, Your pledged shares
will secure Your Account. You may not withdraw amounts that have been specifically pledged to secure Your Account
until the Credit Union agrees to release all or part of the pledged amount.
You grant Us a security interest in all individual and joint share and/or deposit accounts You have with Us now
and in the future to secure Your credit card Account. Shares and deposits in an IRA or any other account that
would lose special tax treatment under state or federal law if given as security are not subject to the security
interest You have given in Your shares and deposits. You may withdraw these other shares unless You are in
default. When You are in default, You authorize Us to apply the balance in these accounts to any amounts due.
For example, if You have an unpaid credit card balance, You agree We may use funds in Your account(s) to pay
any or all of the unpaid balance. You acknowledge and agree that Your pledge does not apply during any
periods when You are a covered borrower under the Military Lending Act. For clarity, You will not be deemed a
covered borrower, and Your pledge will apply, if: (i) You established Your credit card Account when You were
not a covered borrower; or (ii) You cease to be a covered borrower.
Unless otherwise prohibited by federal and/or state law, collateral securing other loans You have with the Credit Union
may also secure this loan, except that a dwelling will never be considered as security for this Account, notwithstanding
anything to the contrary in any other Agreement.
1. USING YOUR ACCOUNT — By using the Account or keeping the Card, You agree to the terms of this Agreement
and the Arbitration Agreement. Unless You are a Covered Borrower under the Military Lending Act, and unless prohibited
by law, You understand that arbitration limits Your rights. You agree to use Your Account in accordance with this
Agreement. Your Account must only be used for lawful transactions.
2. CREDIT LIMIT — We may establish a credit limit as part of this Agreement, which You promise not to exceed. If You
exceed the credit limit, You promise to repay immediately the amount which exceeds the credit limit, including amounts
due to finance charges, fees or other charges. You may request a credit limit increase on Your Account only by a method
acceptable to the Credit Union. We may increase or decrease Your credit limit, refuse to make an advance and/or
terminate Your Account at any time for any reason permitted by law.
3. REPAYMENT — You promise to repay all amounts You owe under this Agreement. Your promise to repay includes
all transactions made to Your Account by You or anyone You authorize to use Your Account as well as all interest
charges and fees.
For each billing period, You must pay at least the Minimum Payment Due by the Payment Due Date.
© CUNA Mutual Group 1991, 2006, 09, 10, 12, 14, 16 All Rights Reserved

04800387-MXC30-C-1-020520 (MXC303-E)

The Minimum Payment Due is 2.00% of Your total New Balance, or $25.00, whichever is greater, plus any amount past
due and any amount by which You have exceeded Your applicable credit limit. If Your total New Balance is less than
$25.00, then Your Minimum Payment Due is the amount of the total New Balance.
You may pay more frequently, pay more than the Minimum Payment Due or pay the total New Balance in full.
If You make extra or larger payments, You are still required to make at least the Minimum Payment Due each month Your
Account has a balance (other than a credit balance). The Credit Union may delay replenishing Your credit limit until the
date the payment is posted or the Credit Union confirms the payment has cleared.
Your payment of the required Minimum Payment Due may be applied to what You owe the Credit Union in any manner
the Credit Union chooses, as permitted by applicable law. If You make a payment in excess of the required Minimum
Payment Due, the Credit Union will allocate the excess amount first to the balance with the highest annual percentage
rate (“APR”) and any remaining portion to the other balances in descending order based on applicable APR, unless
otherwise prescribed by applicable law. We may accept checks marked "payment in full" or with words of similar effect
without losing any of Our rights to collect the full balance of Your Account with Us.
4. INTEREST AND FINANCE CHARGES — We will begin charging You interest on purchases on the date the
transaction is posted to Your Account. We will begin charging You interest on cash advances and balance transfers on
the date of the transaction or the first day of the billing cycle in which the transaction is posted to Your Account, whichever
is later (transaction date). However, We will not charge You any interest on new purchases if Your Account had a zero or
credit balance at the beginning of that billing cycle, or You paid the entire new balance on the previous cycle's billing
statement by the Payment Due Date of that statement. To avoid an additional finance charge on the balance of
purchases, You must pay the entire new balance on the billing statement by the Payment Due Date of that statement.
How We Calculate Your Balance:
Interest charges on Your Account are calculated separately for purchases, balance transfers and cash advances
(“Transaction Type”). We figure the interest charge for each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average daily balance” for a Transaction Type We take the beginning
balance for that Transaction Type each day, add any new transactions of that type, and subtract any unpaid interest or
other finance charges and any applicable payments or credits. This gives Us the daily balance for each Transaction Type.
Then, for each Transaction Type, We add up all the daily balances for the billing cycle and divide each total by the
number of days in the billing cycle. This gives Us the “average daily balance” for each Transaction Type.
5. FEES — In addition to the periodic rate, additional fees may be imposed on Your Account. If applicable to Your
Account, the fee amounts and explanations are disclosed on the Account Opening Disclosure accompanying this
Agreement.
6. FOREIGN TRANSACTIONS — Purchases and cash advances made in foreign currencies will be debited from Your
Account in U.S. dollars. The exchange rate between the transaction currency and the billing currency used for processing
international transactions is a rate selected by Visa from a range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate Visa itself receives or the government-mandated
rate in effect for the applicable central processing date. The exchange rate used on the processing date may differ from
the rate that would have been used on the purchase date or cardholder statement posting date.
A fee (finance charge) will be charged on all transactions completed in a foreign currency. All fees are calculated based
on the transaction amount after it is converted to U.S. dollars. These fees are charged except where excluded. The
Foreign Transaction Fee is set forth on the Disclosure accompanying this Agreement.
7. AUTHORIZATIONS — We do not guarantee authorization of a transaction, either by Us or by a third party, even if
You have sufficient credit available. You agree that We will not be liable for failing to give an authorization. We also
reserve the right to limit the number of transactions that may be approved in one day. We reserve the right to deny certain
transactions for any reason and at Our sole discretion, including for default, suspected fraudulent or unlawful activity,
internet gambling or any indication of increased risk related to the transaction or the Account. You agree that We have no
requirement to notify You of the specific reason We denied a transaction. If We detect unusual or suspicious activity, We
may suspend Your credit privileges until We can verify the activity, or We may close the Account.
8. PREAUTHORIZED CHARGES — If You default, if the Card is lost or stolen, or We change the Account for any
reason, We may suspend automatic charges with third party vendors. If preauthorized charges are suspended, You are
responsible for making direct payment for such charges until You contact the third party to reinstate the automatic
charges.
9. DEFAULT — Upon default, the entire outstanding balance due under this Agreement shall, unless excused by Our
Board of Directors, become immediately due and payable, subject only to any right to cure default which You may have
under Section 425.105 of the Wisconsin Statutes. A default shall be deemed to have occurred if (a) You fail to make
payments when due on two occasions within any 12-month period, or (b) You fail to observe any other covenant of this
Agreement, change marital status, change marital domicile or You or Your spouse become insolvent or subject of a
bankruptcy or other insolvency proceeding, if such failure, act or occurrence materially impairs Your ability to pay the
amount due under this Agreement or breach of which materially impairs the condition, value or protection of the
Page 2 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

merchant's rights in any collateral securing the transaction. In addition, notwithstanding Sections 425.103 and 425.105 of
the Wisconsin Statutes, in the event We receive a notice of termination of this Agreement from the spouse of a borrower
pursuant to Section 766.565(5), Wisconsin Statutes, We may declare the entire outstanding balance of the Agreement
immediately due and payable. If immediate payment is demanded, You agree to continue paying finance charges at the
periodic rate charged before the default, until what You owe has been paid, and any shares that were given as security for
Your Account may be applied towards what You owe.
10. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION — If You notice the loss or theft of
Your credit card or a possible unauthorized use of Your Card, You should write to Us immediately at PO Box 8046,
Madison, WI, 53708-8046 or call Us at (608) 243-5000, Monday through Friday 9:00 a.m. to 5:00 p.m. CST or (800) 2365560, seven days a week 24 hours a day.
You will not be liable for any unauthorized use that occurs after You notify Us. You may, however, be liable for
unauthorized use that occurs before Your notice to Us. You will have no liability for unauthorized use unless You are
negligent in the handling of Your Card. In any case, Your liability for unauthorized transactions will not exceed $50.
11. CHANGING OR TERMINATING YOUR ACCOUNT — As permitted by law, the Credit Union may change the terms
of this Agreement and any attached Disclosure from time to time. Notice of any change will be given in accordance with
applicable law. To the extent permitted by law, changes to the Agreement may apply to Your existing account balance as
well as to future transactions.
Arizona, California, Idaho, Louisiana, New Mexico, Nevada, Texas, Washington, and Wisconsin Residents - Either
You, Your spouse or the Credit Union may terminate this Agreement at any time, but termination by You, Your spouse or
the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges You or Your
spouse owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You
owe under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card
or Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
Residents of all other states - Either You or the Credit Union may terminate this Agreement at any time, but termination
by You or the Credit Union will not affect Your obligation to pay the account balance plus any finance and other charges
You owe under this Agreement. Your obligation to pay the account balance plus any finance and other charges You owe
under this agreement are subject to all applicable laws and regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether by You or the Credit Union.
12. AUTHORIZED USERS — Upon Your request, We may issue additional Cards for authorized users that You
designate. You must notify Us in writing of any termination of an authorized user's right to access Your Account. Your
notice must include the name of the authorized user and Your Account number and/or any subaccount number issued to
the authorized user along with the authorized user's Card and any convenience or other access checks issued to the
authorized user. If You cannot return the authorized user's Card or access checks and if You request Your Account to be
closed, We will close Your Account and You may apply for a new Account. Alternatively, We may, at Our sole discretion,
issue You a new Account number and a new Card.
13. CREDIT REPORTS AND NOTICE OF NEGATIVE INFORMATION — You authorize the Credit Union to obtain credit
reports and any other information We may need to verify Your identity and use of the Account when opening Your
Account and for any update, increase, renewal, extension, collection or review of Your Account. You authorize the Credit
Union to disclose information regarding Your Account to credit bureaus and creditors who inquire about Your credit
standing. We may report information about Your Account to credit bureaus. Late payments, missed payments, or other
defaults on Your Account may be reflected on Your credit report.
14. JOINT ACCOUNTS — If this is a joint Account, each of You will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the Credit Union can require any one of You individually to repay
the entire amount owed under this Agreement. Each of You authorizes the other(s) to make transactions on the Account
individually. Any one of You may terminate the Account and the termination will be effective as to all of You.
15. EFFECT OF AGREEMENT — This Agreement is the contract which applies to all transactions on Your Account even
though the sales, cash advances, credit or other slips You sign or receive may contain different terms.
16. SEVERABILITY AND FINAL EXPRESSION — This Agreement is the final expression of the terms and conditions of
Your Account. This written Agreement may not be contradicted by evidence of any alleged oral Agreement. Should any
part of this Agreement be found to be invalid or unenforceable, all other parts of this Agreement shall remain in effect and
fully enforceable to the fullest extent possible under this Agreement.
17. ILLEGAL TRANSACTIONS PROHIBITED — You agree that You will not use Your Card for any transaction, including
any type of electronic gambling transaction through the Internet, that is illegal under applicable federal, state, or local law.
Even if You use Your Card for an illegal transaction, You will be responsible for all amounts and charges incurred in
connection with the transaction. This paragraph shall not be interpreted as permitting or authorizing any transaction that is
illegal.
Page 3 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

18. APPLICABLE LAW — The terms and enforcement of this Agreement shall be governed by federal law and the law of
Wisconsin.
19. ENFORCING THIS AGREEMENT — We can delay in enforcing or fail to enforce any of Our rights under this
Agreement without losing them.
20. COLLECTION COSTS — If We refer collection of Your Account to a lawyer who is not Our salaried employee, You
are liable for any reasonable attorney’s fees We incur, plus the costs and expenses of any legal action, as further
disclosed on this Agreement, or to the extent allowed by law.
21. ASSIGNMENT — We may assign any or all of Our rights and obligations under this Agreement to a third party.
22. CALIFORNIA RESIDENTS — A married applicant may apply for a separate Account. Applicants: 1) may, after credit
approval, use the credit card Account up to its credit limit; 2) may be liable for amounts extended under the plan to any
joint applicant. As required by law, You are hereby notified that a negative credit report reflecting on Your credit record
may be submitted to a credit reporting agency if You fail to fulfill the terms of Your credit obligations.
23. FLORIDA RESIDENTS — You (borrower) agree that, should We obtain a judgment against You, a portion of
Your disposable earnings may be attached or garnished (paid to Us by Your employer), as provided by Florida
and Federal law.
24. MARYLAND RESIDENTS — To the extent, if any, that Maryland law applies to Your Account, We elect to offer Your
Card Account pursuant to Title 12, Subtitle 9 of the Maryland Commercial Law Article.
25. MISSOURI RESIDENTS — Oral Agreements or commitments to loan money, extend credit or to forbear from
enforcing repayment of a debt including promises to extend or renew such debt are not enforceable. To protect
You (borrower(s)) and Us (creditor) from misunderstanding or disappointment, any Agreements We reach
covering such matters are contained in this writing, which is the complete and exclusive statement of the
Agreement between Us, except as We may later agree in writing to modify it.
26. NEW YORK RESIDENTS — We may obtain a credit report in connection with this Account, including for any review,
modification, renewal or collections associated with this Account. Upon Your request, You will be informed whether such
report was requested and, if so, the name and address of the consumer reporting agency furnishing the report. New York
residents may contact the New York State Banking Department at 800.342.3736 or www.dfs.ny.gov to obtain a
comparative listing of credit card rates, fees and grace periods.
27. OHIO RESIDENTS — The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers and that credit reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
28. SOUTH DAKOTA RESIDENTS — If You believe there have been any improprieties in making this loan or in the
lender’s loan practices, You may contact the South Dakota Division of Banking at 1601 N. Harrison Ave, Suite 1, Pierre,
SD 57501, or by phone at 605.773.3421.
29. WISCONSIN RESIDENTS — If You are married, please contact Us immediately upon receipt of this Agreement at the
address or phone number listed on this Agreement and provide Us with the name and address of Your spouse. We are
required to inform Your spouse that We have opened an Account for You.
30. NOTICE TO UTAH BORROWERS — This written Agreement is a final expression of the Agreement between You
and the Credit Union. This written Agreement may not be contradicted by evidence of any oral Agreement. As required by
law, You are hereby notified that a negative credit report reflecting on Your credit record may be submitted to a credit
reporting agency if You fail to fulfill the terms of Your credit obligations.
31. THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER — YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER
DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.

Page 4 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

Arbitration Agreement
In this Arbitration Agreement all references to "Credit Union", "We", "Our" or "Us" mean the Credit Union whose name
appears on this document and anyone to whom the Credit Union assigns or transfers this Agreement. All references to the
"Account" mean the Account described in the Credit Card Agreement and Disclosure that is part of this document. All
references to "You" or "Your" refers to each applicant and co-applicant for the Account; any person responsible for paying
the Account; and anyone You authorize to use, access or service the Account.
ARBITRATION AGREEMENT, WAIVER OF CLASS ACTION, AND WAIVER OF JURY TRIAL
NOTICE: THIS AGREEMENT CONTAINS PROVISIONS FOR BINDING (MANDATORY)
ARBITRATION AND WAIVER OF JURY TRIAL. Upon the election of either You or Us, any Claim will be
resolved by BINDING ARBITRATION as set forth below. In arbitration, a dispute is resolved by an
arbitrator instead of a judge or jury. Arbitration procedures are simpler than court procedures, but many
procedures permitted in court are limited or not available in arbitration.
This Arbitration Agreement provides You with the right to opt out of this Arbitration Agreement as set forth
below. Should You decide not to opt out of the Arbitration Agreement, You will have agreed to the Arbitration
Agreement.
If You and We cannot informally resolve any Claim, You agree that You or We may elect to submit the Claim to binding
arbitration under the terms of this Arbitration Agreement.
“Claim” means any and all disputes arising out of, affecting, or relating to this Credit Card Agreement and Disclosure in
any way, including any events leading up to the Credit Card Agreement and Disclosure and the entering into of the Credit
Card Agreement and Disclosure (for example, disclosures, advertisements, or oral or written statements). Claim has the
broadest possible meaning and includes disputes based upon contract, tort, statute or otherwise and claims for money
damages and injunctive or declaratory relief. Claim also includes, except as otherwise provided herein, a dispute about
whether this Arbitration Agreement is valid or enforceable, about when it applies and about whether a dispute is subject to
this Arbitration Agreement (i.e., is arbitrable). However, the term Claim does not include any dispute about the validity,
effect or enforceability of the prohibitions against class proceedings (the “Class Action Waiver”), and any such dispute
shall be resolved by a court. Claim also does not include any dispute that is subject to the jurisdiction of, and commenced
as an action in, small claims court (or an equivalent court thereto). However, if the dispute is transferred, removed or
appealed from a small claims court to any different court, either party may elect to arbitrate that dispute as a Claim.
Additionally, this Arbitration Agreement does not limit the right of You or Us, whether before, during or after the pendency
of any arbitration proceeding, to exercise self-help remedies such as set-off, recoupment, repossession, trustee’s sales
and the like. This agreement to arbitrate shall include any Claim involving Our employees, agents, successors or assigns,
and any such Claim against any of those parties may be joined or consolidated with any related Claim against Us in a
single arbitration proceeding.
This Arbitration Agreement does not apply to any consumer credit transaction as set forth in the Military Lending Act with
respect to any member of the armed forces on active duty or active Guard and Reserve duty, who is on such active duty
at the time the consumer credit transaction was entered into or at the time any Claim is asserted by You or by Us, or to
any such member’s dependents as they are defined in the Military Lending Act.
RIGHT TO OPT OUT OF ARBITRATION AGREEMENT. You have the right to opt out of this Arbitration Agreement
and it will not affect any other terms and conditions of Credit Card Agreement and Disclosure of Credit
Agreement or Your relationship with Us. To opt out, You must notify Us in writing of Your intent to do so within
30 days of the date You signed this Arbitration Agreement. Your notice of intent to opt out must be a letter that is
signed by You that uses words to convey Your election to opt out of arbitration with respect to Credit Card
Agreement and Disclosure. The letter must also include Your name, address, and Your Credit Card Agreement
and Disclosure Account number. You may send such notice to Us at: Summit Credit Union, Attn: Risk
Management, P.O. Box 8046, Madison, WI 53708-8046. Please retain a copy of the letter You send. In the event
any person signing the Credit Card Agreement and Disclosure opts out of this Arbitration Agreement, all persons
signing the Credit Card Agreement and Disclosure or otherwise obligated thereunder shall also be considered
opted out of this Arbitration Agreement. Any opt-out of arbitration will apply only to this Arbitration Agreement
(and not to any prior or subsequent arbitration agreement into which You enter with Us).
If You do not opt out of the Arbitration Agreement, then You agree that any and all Claims that are threatened, made, filed
or initiated after the Effective Date (defined below) of this Arbitration Agreement, even if the Claims arise out of, affect or
relate to conduct that occurred prior to the Effective Date, shall, at the election of either You or Us, be resolved by binding
arbitration administered by the American Arbitration Association (“AAA”) (1-800-778-7879; http://www.adr.org), or such
arbitrator to which the parties may agree, in accordance with AAA’s applicable rules and procedures for consumer
disputes (“Rules”). The Rules can be obtained on the AAA website free of charge at www.adr.org. Either You or We may
Page 5 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

elect to resolve a particular Claim through arbitration, even if the other party has already initiated litigation in court related
to the Claim, by: (a) making written demand for arbitration upon the other party, (b) initiating arbitration against the other
party, or (c) filing a motion to compel arbitration in court.
IMPORTANT NOTICE: IF EITHER YOU OR WE ELECT TO RESOLVE A PARTICULAR CLAIM THROUGH
ARBITRATION, YOU WILL GIVE UP YOUR RIGHT TO GO TO COURT TO ASSERT OR DEFEND YOUR RIGHTS OR
HAVE A JURY DECIDE THE CLAIM. ALSO, YOUR ABILITY TO OBTAIN INFORMATION FROM US AND TO APPEAL
IS MORE LIMITED IN AN ARBITRATION PROCEEDING THAN IN A LAWSUIT. OTHER RIGHTS THAT YOU WOULD
HAVE IF YOU WENT TO COURT MAY ALSO NOT BE AVAILABLE IN ARBITRATION.
1. Applicable Law. You and We agree that the Credit Card Agreement and Disclosure and this Arbitration Agreement
involve interstate commerce, and that this Arbitration Agreement shall be interpreted and enforced in accordance with the
Federal Arbitration Act set forth in Title 9 of the U.S. Code to the fullest extent possible, notwithstanding any state law to
the contrary, regardless of the origin or nature of the Claims at issue. The Arbitrator must follow, to the extent applicable:
(1) the substantive law of the state in which We entered into the Credit Card Agreement and Disclosure; (2) the applicable
statutes of limitations; and (3) claims of privilege recognized at law. In the event of a conflict between the Rules and this
Arbitration Agreement, this Arbitration Agreement shall supersede the conflicting Rules only to the extent of the
inconsistency. The Arbitrator will not be bound by federal, state or local rules of procedure and evidence or by state or
local laws concerning arbitration proceedings.
2. Selection of Arbitrator. The Claims shall be resolved by a single arbitrator. The Arbitrator shall be selected in
accordance with the Rules, and must have experience in the types of financial transactions at issue in the Claims. If AAA
is unavailable to resolve the Claims, and if You and We do not agree on a substitute forum, then You can select the forum
for the resolution of the Claims.
3. Effective Date. This Arbitration Agreement is effective on the date You receive it (“Effective Date”), unless You opt-out
in accordance with the requirements of the RIGHT TO OPT-OUT provision above.
4. Arbitration Proceedings. A Claim in an arbitration proceeding may be decided by the arbitrator based on the parties’
written submissions. If a hearing is necessary as determined by the Arbitrator, it may be conducted by telephone or by
video, if the parties have such capabilities. Otherwise, if the Arbitrator determines an in-person hearing is necessary, the
hearing will take place in the county where You reside, are personally served, where You signed the Credit Card
Agreement and Disclosure, or any other place reasonably convenient to You where applicable law requires or pursuant to
the Rules. Any claims and defenses that can be asserted in court can be asserted in the arbitration. The Arbitrator shall
be entitled to award the same remedies that a court can award, including any kind of injunctive relief or award of attorney
fees that could be awarded by a court. Exchange of non-privileged information shall be available to the fullest extent
permitted under the Rules. The Arbitrator’s award can be entered as a judgment in court in accordance with applicable
state law. Upon the timely request of any party to an arbitration proceeding, the Arbitrator must provide a brief written
explanation of the basis for the award, explaining the application of the law to the facts presented. Except as provided in
applicable statutes, the Arbitrator’s award is not subject to review by the court and it cannot be appealed. We will pay for
any filing, administration, and arbitrator fees imposed on You by the AAA. You will be responsible for Your own attorneys’
fees and other costs and expenses unless You prevail on Your Claim in the arbitration, and the arbitrator awards You
attorney fees and/or Your other costs and expenses under applicable law or the Rules, in which case We will pay Your
such fees, costs, and expenses. You will not be required to pay any attorneys’ fees or costs incurred by Us.
5. CLASS ACTION WAIVER. ANY ARBITRATION OF A CLAIM WILL BE ON AN INDIVIDUAL BASIS. YOU
UNDERSTAND AND AGREE THAT YOU ARE WAIVING THE RIGHT TO PARTICIPATE AS A CLASS
REPRESENTATIVE OR CLASS MEMBER IN A CLASS ACTION LAWSUIT. AS PART OF THIS WAIVER, YOU
AGREE THAT YOU WAIVE THE RIGHT TO ACT AS A PRIVATE ATTORNEY GENERAL IN COURT OR IN AN
ARBITRATION; THAT EXCEPT AS OTHERWISE PROVIDED IN THIS ARBITRATION AGREEMENT, CLAIMS
BROUGHT BY OR AGAINST YOU MAY NOT BE JOINED OR CONSOLIDATED WITH CLAIMS BROUGHT BY OR
AGAINST ANY OTHER PERSON; AND THE ARBITRATOR SHALL HAVE NO AUTHORITY TO CONDUCT A CLASSWIDE ARBITRATION, PRIVATE ATTORNEY GENERAL ARBITRATION OR MULTIPLE-PARTY ARBITRATION.
6. WAIVER OF RIGHT TO TRIAL BY JURY. Whether any controversy is arbitrated or resolved by a court, You and We
voluntarily and knowingly waive any right to a jury trial with respect to such controversy to the fullest extent allowed by
law.
7. Severability. In the event the Class Action Waiver in this Arbitration Agreement is found to be unenforceable for any
reason, the remainder of this Arbitration Agreement shall also be unenforceable. If any provision in this Arbitration
Agreement, other than the Class Action Waiver, is found to be unenforceable, the remaining provisions shall remain fully
enforceable.
If You have questions about AAA procedures, You may contact AAA at 1-800-778-7879 or visit AAA’s website at
www.adr.org.

Page 6 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at the address listed on Your statement.
In Your letter, give Us the following information:

- Account information: Your name and Account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If You think there is an error on Your bill, describe what You believe is wrong and why You
believe it is a mistake.
You must contact Us:
- Within 60 days after the error appeared on Your statement.
- At least three business days before an automated payment is scheduled, if You want to stop payment on the amount
You think is wrong.
You must notify Us of any potential errors in writing or electronically. You may call Us, but if You do We are not required
to investigate any potential errors and You may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell You that We received Your letter. We will also tell You if We have
already corrected the error.
2. Within 90 days of receiving Your letter, We must either correct the error or explain to You why We believe the bill is
correct.
While We investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report You as delinquent on that amount.
- The charge in question may remain on Your statement, and We may continue to charge You interest on that amount.
- While You do not have to pay the amount in question, You are responsible for the remainder of Your balance.
- We can apply any unpaid amount against Your credit limit.
After We finish Our investigation, one of two things will happen:
- If We made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
- If We do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send You a statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.
If You receive Our explanation but still believe Your bill is wrong, You must write to Us within 10 days telling Us that You
still refuse to pay. If You do so, We cannot report You as delinquent without also reporting that You are questioning Your
bill. We must tell You the name of anyone to whom We reported You as delinquent, and We must let those organizations
know when the matter has been settled between Us.
If We do not follow all of the rules above, You do not have to pay the first $50 of the amount You question even if Your bill
is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your credit card, and You have tried in
good faith to correct the problem with the merchant, You may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in Your home state or within 100 miles of Your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You the goods or services.)
2. You must have used Your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses Your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase, contact Us in writing or electronically at
the address listed on Your statement.
While We investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation,
We will tell You Our decision. At that point, if We think You owe an amount and You do not pay, We may report You as
delinquent.
Page 7 of 7
04800387-MXC30-C-1-020520 (MXC303-E)

